<html>
<title> - FORUM ON EARLY LEARNING: INVESTING IN OUR CHILDREN, INVESTING IN OUR FUTURE</title>
<body><pre>[Senate Hearing 107-256]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-256
 
 FORUM ON EARLY LEARNING: INVESTING IN OUR CHILDREN, INVESTING IN OUR 
                                 FUTURE

=======================================================================


                                HEARING


                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING THE QUALITY OF EARLY CHILDHOOD LEARNING PROGRAMS, FOCUSING ON 
        THE IMPORTANCE OF EARLY CHILDHOOD COGNITIVE DEVELOPMENT

                               __________

                            JANUARY 24, 2002
                               __________


 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions






                    U.S. GOVERNMENT PRINTING OFFICE
77-367                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel
             Townsend Lange McNitt, Minority Staff Director

                                  (ii)

  









                            C O N T E N T S

                               __________

                               STATEMENTS

                       Thursday, January 24, 2002

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
Gregg, Hon. Judd, a U.S. Senator from the State of New Hampshire, 
  opening statement..............................................     2
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut, opening statement.................................     2
Zigler, Edward, Ph.D., Sterling Professor of Psychology, Yale 
  University, Head, Psychology Section, Yale Child Study Center, 
  and Director, Bush Center in Child Development and Social 
  Policy.........................................................     3
Shonkoff, Jack P., M.D., Dean, the Heller School for Social 
  Policy and Management, and Samuel F. and Rose B. Gingold 
  Professor of Human Development and Social Policy, Brandeis 
  University, Waltham, MA........................................     4
Frist, Hon. Bill, a U.S. Senator from the State of Tennessee, 
  opening statement..............................................     7
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland, opening statement....................................     7
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     8
Wellstone, Hon. Paul D., a U.S. Senator from the State of 
  Minnesota, opening statement...................................     8
Hutchinson, Hon. Tim, a U.S. Senator from the State of Arkansas, 
  opening statement..............................................     8
Reed, Hon. Jack, a U.S. Senator from the State of Rhode Island, 
  opening statement..............................................     9
Bond, Hon. Christopher S., a U.S. Senator from the State of 
  Missouri, opening statement....................................     9
Clinton, Hon. Hillary Rodham, a U.S. Senator from the State of 
  New York, opening statement....................................    10
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama, 
  opening statement..............................................    10
Bush, Laura, First Lady..........................................    11
Harkin, Hon. Tom, a U.S. Senator from the State of Iowa, opening 
  statement......................................................    17
Warner, Hon. John W., a U.S. Senator from the State of Virginia, 
  opening statement..............................................    17
McGrath, Bob, a/k/a ``Bob'' of Sesame Street, prepared statement.    23

                                 (iii)

  






 FORUM ON EARLY LEARNING: INVESTING IN OUR CHILDREN, INVESTING IN OUR 
                                 FUTURE

                              ----------                              


                       THURSDAY, JANUARY 24, 2002

                                       U.S. Senate,
          Committee Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, in Room SR-325, 
Russell Senate Office Building, Senator Kennedy (chairman of 
the committee) presiding.
    Present: Senators Kennedy, Dodd, Harkin, Mikulski, Reed, 
Clinton, Gregg, Frist, Enzi, Hutchinson, Warner, Bond, and 
Sessions.

                  Opening Statement of Senator Kennedy

    The Chairman. Good morning. We welcome the opportunity to 
welcome a very special person at a very special forum that we 
are holding on early education.
    All of the members of this committee, Mrs. Bush, remember 
so well at the opening of this forum today another time when 
you were gracious enough to be willing to share your concerns 
and knowledge and interest and ideas with us. That was on 
September 11th, and all of us are mindful of that day and the 
extraordinary tragedy that impacted this country, and we are 
also mindful of your entrance into this room with my colleague 
and friend Judd Gregg to address the American people without 
all the real knowledge that we would have only a few minutes 
later about the great challenge that this Nation would face.
    I, and I think all of America, was impressed by your 
strength and calm and elegance and the way that you were able 
to give assurance and inspiration to the American people. These 
are certainly qualities which all Americans associate with you 
and now with your husband, leading the fight against terrorism 
around the world. We have that as a thought and as a memory.
    I think many of us have other memories as well--your 
extraordinary work on reading, which has been an inspiration to 
so many parents, reminding parents all over this country of the 
value of reading with their children, and we have been inspired 
by your willingness to work with us in Congress and most of all 
with parents and people in local communities in terms of how we 
can provide enrichment to children.
    We are very much aware of all the science of recent times 
that shows the potential and the possibilities of children 
learning at the earliest ages, at the time of the development 
of the brain. This is something that you understood intuitively 
and instinctively, and we are very much interested in hearing 
from you, but most of all, we want to just express our very 
warm sense of appreciation for your presence here and for your 
continued leadership for parents and families in this country 
and helping us to understand how children can learn and what we 
might be able to do to help and assist those families.
    So we are enormously grateful for your willingness to join 
us here, and I will now ask my colleagues if they would like to 
say a word of welcome to our distinguished guest.
    Senator Gregg.

                   Opening Statement of Senator Gregg

    Senator Gregg. Thank you, Mr. Chairman, and thank you for 
holding this hearing. And thank you, Mrs. Bush, for being 
willing to participate.
    As the chairman has mentioned, the last meeting was a 
poignant one and one which is etched in all of our memories as 
one of those points in our lives that we will never forget. And 
certainly your activities during that time make me recall the 
statement of I suspect one of your favorite authors, or 
certainly one of the books that was most taken out of your 
library, and that was Ernest Hemingway, who defined courage as 
``grace under fire.'' Certainly your serenity and grace during 
this very difficult time has been a beacon of strength for our 
Nation, and we very much appreciate it.
    Your leadership on this issue, which is to try to make sure 
that parents understand the importance of early education and 
teaching the alphabet and the sounds of the alphabet to their 
children long before they get into school, is absolutely 
critical, because that sort of highlighting of that very 
important element of education, which is the need for a 
children to learn early how to read, is essential if we are 
going to have effective school systems, because kids have to be 
ready to learn when they get to school. You truly understand 
that, and we thank you for taking that leadership role and 
thank you for taking the time to come to this committee.
    The Chairman. Senator Dodd.

                   Opening Statement of Senator Dodd

    Senator Dodd. Thank you, Mr. Chairman, and welcome, Mrs. 
Bush, to our committee.
    I just want to echo the comments of my two colleagues, both 
to you and to your husband, for your wonderful leadership over 
these past several months.
    On a personal note, I want to thank you for the nice books 
that you sent to my new arrival and daughter, Grace, personally 
noted by the President and you as well. We will cherish those, 
and I will make sure she does not actually use those books for 
a few years; I am afraid of what they might look like, as I am 
told by others who have young children. But we are deeply 
appreciative of your thoughtfulness.
    And again, I thank you for being so involved in this early 
learning issue and thank you for coming back again today to 
discuss this issue with us.
    This is about as critical an issue as this country faces. 
We talk about the security of the Nation and all the steps that 
we are taking at home, the homeland security issues, and 
obviously doing what we can internationally, but in the very 
long-term as a free society, it will be issues like this that 
in the long view of history will determine the strength of our 
country, with young children growing up with the ability to 
learn and to maximize their potential.
    We are joined here today by Secretary Paige, who has been a 
wonderful leader in education; and Eunice Shriver, who is with 
us in the audience today, who has been a remarkable advocate 
for so many years for young children and families and just gave 
me a good lecture about zero to 3. She said, ``You make sure 
that you are with that child of yours from zero to 3,'' and she 
is absolutely correct.
    So we are delighted to hear your testimony today.
    Mr. Chairman, I know that we are not going to hear from the 
second group of panelists--we were planning 2 days of 
hearings--from people like Ed Zigler, whom I know you know very 
well, and Dr. Shonkoff. I might ask at the appropriate time, 
Mr. Chairman, that their testimonies be included as part of 
today's record so that we have the benefit of what they would 
have said on September 11 as well.
    So I thank you for that and welcome you again to the 
committee.
    [The prepared statements of Messrs. Zigler and Shonkoff 
follow:]
   Prepared Statement of Edward Zigler, Ph.D., Sterling Professor of 
Psychology, Yale University, Head, Psychology Section, Yale Child Study 
   Center, and Director, Bush Center in Child Development and Social 
                                 Policy
    It is an honor to be invited back to the Senate, and to share my 
expertise with this committee. I am the Sterling Professor of 
Psychology at Yale University. I also head the Psychology Section of 
the Yale Child Study Center and direct the Bush Center in Child 
Development and Social Policy. I have authored some 30 books and over 
600 scholarly papers, the majority dealing with topics pertinent to 
children's development and learning. In the area of social policy, I 
have worked with every administration, both Republican and Democrat, 
since Lyndon Johnson. I served in Washington during the Nixon 
Administration as the first director of what is now the Administration 
on Children, Youth and Families, and as Chief of the United States 
Children's Bureau. I was one of the planners of our nation's Head Start 
program and a recent spin off, Early Head Start. Over the program's 36 
years, I have become known as both its best friend and its most vocal 
critic.
    Of late there have been criticisms that Head Start is not doing a 
very good job teaching literacy to its young students. I will offer my 
suggestions on that point in a moment. First, let me state that I 
concur that the ability to read is absolutely essential for an 
individual to have a successful life. I therefore applaud President and 
Mrs. Bush for the impetus they have provided to assure that every child 
in America will be a successful reader. However, as someone who has 
studied the growth and development of children for some 45 years, it is 
my responsibility to point out that reading is just one aspect of 
cognitive development, and that cognitive development is just one 
aspect of human development. Cognitive skills are of course very 
important, but they are so intertwined with the physical, social, and 
emotional systems that it is myopic, if not futile, to dwell on the 
intellect and exclude its partners.
    Think about what goes into literacy. Yes, it involves mastery of 
the alphabet, phonemes, and other basic word skills. But a prerequisite 
to achieving mastery is good physical health. The child who is 
frequently absent from school because of illness, or who has vision or 
hearing problems, will have a difficult time learning to read. So will 
children who suffer emotional troubles such as depression, attention 
deficits, or post traumatic stress disorder. And think about 
motivation. A child's curiosity and belief that he or she can succeed 
are just as important to reading as knowing the alphabet. Phonemic 
instruction by the most qualified teacher will do little for a child 
who suffers from hunger, abuse, or a sense of inferiority.
    I am urging that we broaden our approach to literacy by focusing on 
the whole child. We must also broaden our understanding of when and 
where literacy begins. I've heard a lot of preschool-teacher bashing 
lately, but in reality, literacy begins much earlier than age four. It 
begins with the thousands of loving interactions with parents after an 
infant is born. It begins as a child develops a sense of self-worth by 
realizing that his or her accomplishments, whether they be learning to 
roll over or to recite the alphabet, are important to significant 
others. It begins with sitting in a safe lap, hearing a familiar 
bedtime story. Eventually the child will want to emulate the parent and 
read too. Reading, then, begins with meeting the child's physical, 
social, and emotional needs, followed by exposure to more formal 
literacy skills.
    This broader view was recently endorsed in the wonderful new book, 
From Neurons to Neighborhoods, where the finest child development 
thinkers in the country pointed out the importance of emotional and 
motivational factors in human development. This statement corrected a 
short-coming of my field for the past 50 years--namely an emphasis on 
cognitive development to the exclusion of personality and motives, 
which are so central to the burgeoning new discipline of emotional 
intelligence. The President is correct in his recent championing of the 
child's character. Piece by piece, then, the President is discovering 
the whole child--recognition that has been one of the great strengths 
of our nation's Head Start program.
    Head Start is an early education program, but it is also a physical 
and mental health program. It is dedicated to involving the parents, 
who, after all, will have a greater influence on the child's learning 
than any other source. The new Early Head Start program in fact 
emphasizes parent-child interactions, the very place where literacy 
begins. Senator Kennedy realized the importance of the years zero to 
three some time ago and was the one who made Early Head Start a 
reality. Since then, it has grown from 17 sites to over 600.
    You have all heard recent reports that children are graduating from 
Head Start with few prereading skills. Yet a sizeable literature shows 
that they are ready for school, and even the recent FACES evaluation of 
Head Start shows good progress, including literacy, in kindergarten. Do 
I believe that Head Start should do more to promote literacy? Most 
definitely. The new performance standards are moving the program toward 
more defined curricula with specific goals for literacy and related 
skills. But Head Start needs the resources to carry out these plans. If 
we want well-trained teachers who can implement sound educational 
programs that send children on their way to reading, we simply have to 
pay them more than poverty level wages. And if we want to draw more 
low-income parents into their children's learning, we need to expand 
Early Head Start.
    Shoring up the quality of Head Start can have an impact far beyond 
its target population. Head Start is a model program whose success in 
promoting school readiness has fed the movement toward universal 
preschool. Head Start quality standards are beginning to filter to 
child care settings. A lot of research has shown that most child care 
in this nation is poor to mediocre. Yet millions of infants and 
toddlers--the very ages when literacy begins--are spending their days 
in such places.
    In sum, if we want a nation of readers, we have to look beyond 
teaching phonics. We have to look at the whole child, the parents, and 
at all of the people and experiences that make up the child's early 
learning environment.

 Prepared Statement of Jack P. Shonkoff, M.D., Dean, The Heller School 
  for Social Policy and Management, and Samuel F. and Rose B. Gingold 
Professor of Human Development and Social Policy, Brandeis University, 
                              Waltham, MA
    My name is Jack Shonkoff. I am the Dean of the Heller School for 
Social Policy and Management and Gingold Professor of Human Development 
and Social Policy at Brandeis University. I am also a Board-certified 
pediatrician with two decades of practical experience in the delivery 
of health care and early childhood intervention services who had the 
privilege of serving as Chair of the National Research Council and 
Institute of Medicine Committee that produced the recently released 
report entitled, From Neurons to Neighborhoods: The Science of Early 
Childhood Development.
    I would like to begin by thanking Senator Kennedy and this 
distinguished Committee for focusing the nation's attention on the 
health and development of our youngest children. I also would like to 
acknowledge the support of The First Lady, Laura Bush, who testified 
before this Committee three weeks ago, and underscore the importance of 
a bipartisan approach to this critical national interest.
    I speak with you this morning, not as an advocate or provider of 
services, but as the chair of a committee of scientists who conducted a 
critical analysis of current knowledge about early childhood 
development, and whose conclusions and recommendations were subjected 
to the rigorous review of the National Academy of Sciences. The 
unimpeachable integrity of this distinguished institution and the 
credibility of its endorsement should not be underestimated.
    In the spirit of brevity, I offer four core conclusions from the 
NRC/IOM report. These are not based on my personal opinion. This is 
cutting-edge science.
    Human development is determined by both nature and nurture. 
Molecular biologists at the forefront of the Human Genome Project and 
leading behavioral scientists agree that each of us is the product of 
both a unique genetic endowment and the influence of our personal life 
experiences. For young children, beginning at birth, the question is 
not whether early experience matters, but rather how early experiences 
shape individual development.
    The essential features of the environment that influence children's 
development are their relationships with the most important people in 
their lives. When these relationships provide love, stability, 
security, responsive interaction, and encouragement of exploration and 
learning, children thrive. When these relationships are unstable, 
neglectful, abusive, or disrupted by significant life stresses such as 
economic hardship, substance abuse, or serious mental illness, the 
consequences can be severe and long lasting. Children's early 
development is influenced most significantly by the health and 
wellbeing of their parents. It is also affected by the quality of their 
relationships with the other important people in their lives, who 
increasingly include non-family providers of early care and education. 
Together these relationships define the cultural context within which 
core values are transmitted from one generation to the next.
    The early emergence of intelligence, emotional regulation, and 
social skills are highly inter-related and the development of 
competence in each is closely intertwined with the others. Starting 
from birth, children are remarkably inquisitive explorers who 
experience a range of powerful emotions. Before their first birthday, 
they can feel the exhilaration of mastering a challenging task as well 
as the deep and lasting sadness that builds in response to trauma, 
loss, or early personal rejection. As their brains mature, their 
ability to master new skills grows and these emerging learning 
abilities are linked closely to their capacity to regulate their 
feelings and control their own behavior.
    Early childhood programs that deliver carefully designed services 
by well-trained staff can have significant positive impacts on young 
children with a wide range of developmental difficulties, but 
interventions that work are rarely simple, inexpensive, or easy to 
implement. There are no magic bullets or quick fixes for addressing the 
complexities of human development. Poorly designed interventions 
delivered by inadequately trained providers are unlikely to produce 
significant benefits. In contrast, state-of-the-art services that are 
funded sufficiently are a wise public investment that is likely to 
return both short-term developmental dividends and long-term human 
capital gains.
    Stated simply, although the politics of early childhood are 
complicated, the needs of young children are relatively straightforward 
and the messages from the scientific community are clear:
    <bullet> All aspects of human development are influenced by both 
the genes we inherit and the environment in which we live.
    <bullet> Human relationships are the ``active ingredients'' of 
environmental influence on child development.
    <bullet> How children feel is as important as how they think, 
particularly as it affects their readiness to meet the challenges of 
school.
    <bullet> Developmental pathways can be influenced positively by 
effective parenting and supportive environments, and early problems can 
be treated effectively, but the success of early childhood intervention 
services depends on the quality of their implementation and the 
knowledge and skills of those who provide them.
    When our public policies dismiss or ignore the science of early 
childhood development, we miss an opportunity to address the underlying 
roots of many important national concerns. Let me offer a few examples:
    <bullet> How can the recently enacted No Child Left Behind Act of 
2001 emphasize the need for stronger performance standards and 
financial incentives to attract bright and highly motivated teachers, 
while we simultaneously tolerate large percentages of inadequately 
trained and poorly compensated providers of early child care and 
education who have an important influence on the foundations of school 
readiness?
    <bullet> Why do we measure the success of welfare reform primarily 
in terms of labor force participation when large numbers of working 
mothers with young children are still living under the poverty level, 
and recent research indicates that poverty in the first five years may 
be a stronger predictor of not completing high school than is poverty 
in middle childhood or adolescence?
    <bullet> How can we reconcile our national concern about reducing 
violent crime with the fact that we know how to treat very young 
children who have been abused or exposed to family violence, yet most 
of these emotionally traumatized children receive little or no 
professional mental health services?
    <bullet> Why do we focus public debate on the relative merits of 
alternative investment options for the Social Security trust fund and 
not also address the compelling question of how best to invest in the 
young children whose future productivity will be essential to the 
continued viability of the Social Security system ``as we know it?''
    Over the past few decades, there have been marked changes in the 
nature, schedule, and amount of work engaged in by parents of young 
children, and greater difficulty balancing workplace and family 
responsibilities for parents at all income levels. At the same time, 
growing numbers of young children are spending considerable time in 
child care settings of highly variable quality, some of which pose real 
threats to their health and development. In 1999, the National 
Household Education Survey reported that 61 percent of children under 
age 4 were in regularly scheduled child care, including 44 percent of 
infants under 1 year.
    The knowledge needed for informed policies to promote the well-
being of all our nation's children has been gained from nearly half a 
century of considerable public investment in early childhood research. 
Although the science is growing at an increasingly rapid pace, the gap 
between what we know and what we do is unacceptably wide. Let me offer 
a few examples of what could be done to narrow that gap:
    <bullet> If we really want to enhance children's readiness for 
school, then we must pay as much attention to the development of their 
social and emotional competence as we do to their cognitive and 
linguistic abilities. The current emphasis on early literacy, which 
should be supported, will not achieve its full impact if early 
childhood professionals are not prepared to help the many young 
children whose learning is compromised by limited attention, aggressive 
behavior, anxiety, depression, or difficulty making or sustaining 
relationships. Knowing the alphabet on your first day of school is not 
enough if you can't sit still or control your temper in the classroom.
    <bullet> If we really want to support families and enhance child 
well-being, then we must promote healthy relationships between young 
children and the adults who raise them. If we really want to strengthen 
those relationships, then we must find a way to create more viable 
choices for working mothers--by developing politically and economically 
feasible mechanisms to provide both paid parental leave for those who 
wish to stay at home with their young children and affordable, quality 
care and early education for the children of those who return to work.
    <bullet> If we really want to reduce disparities in school 
readiness based on social class, then we must promote real partnerships 
among federal, state, and local governments to create more unified and 
effective systems of services, from birth to school entry. Current 
early childhood programs were established in a piecemeal fashion over 
time--and their variable quality and persistent fragmentation result in 
a confusing array of services for families, marked inefficiencies in 
the use of public and private resources, a difficult environment for 
assuring accountability and assessing impacts, and significant 
inequalities in access to programs that are most effective, leading to 
a highly uneven playing field for America's youngest children well 
before they begin school.
    <bullet> If we really want to secure the economic and political 
future of our nation, then we must enhance the value of our investments 
in early childhood programs by increasing the knowledge, skills, and 
compensation of those who provide these services. An education agenda 
that neglects the professional development of those who influence the 
foundation that is built in the first 5 years of life ignores the 
science of learning, and assures that many children will be left behind 
before they have a chance to start.
    Most children successfully master the challenges of growing up in a 
wide range of circumstances. A significant number do not. Most of those 
who experience difficulties along the way are helped to get back on 
track by the skilled guidance of their parents and other adults who 
care for them. A highly vulnerable subgroup exhibits serious and 
persistent problems that require specialized intervention.
    The NRC/IOM report, From Neurons to Neighborhoods, calls for ``a 
new national dialogue focused on rethinking the meaning of both shared 
responsibility for children and strategic investment in their future.'' 
In its concluding thoughts, the report states:
    The time has come to stop blaming parents, communities, business, 
and government--and to shape a shared agenda to ensure both a rewarding 
childhood and a promising future for all children.
    There is a compelling need for more constructive dialogue between 
those who support massive public investments in early childhood 
services and those who question their cost and ask whether they really 
make a difference. Both perspectives have merit. Advocates of earlier 
and more intervention have an obligation to measure their impacts and 
costs. Skeptics, in turn, must acknowledge the massive scientific 
evidence that early childhood development is influenced by the 
environments in which children live. (National Research Council and 
Institute of Medicine, 2000. pp. 414-15)
    I applaud the efforts of this Committee, under your leadership, 
Senator Kennedy, to focus the nation's attention on our youngest 
children and their families, and I welcome the opportunity to answer 
any questions that you may have. Thank you.
    The Chairman. Senator Frist.

                   Opening Statement of Senator Frist

    Senator Frist. Mr. Chairman, I know that we need to be very 
brief, but I want to extend my welcome to the First Lady as 
well.
    The father of modern rocketry, Robert Goddard, once said: 
``It is difficult to say what is impossible, for the dream of 
yesterday is the hope of today and the reality of tomorrow.'' I 
think about that quotation, because to me it demonstrates where 
we are along a time line, and to have your leadership and you 
taking the initiative on early education and the direction and 
importance it plays in this overall evolution, in truth, going 
from hopes and dreams to reality, is something that we all 
very, very much appreciate.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Mikulski.

                 Opening Statement of Senator Mikulski

    Senator Mikulski. Thank you.
    Good morning, Mrs. Bush. It is wonderful to see you again.
    I just want to take this opportunity to commend you for 
your leadership and your ongoing steadfastness in the advocacy 
for children in this Nation and to be sure that their 
achievements do not depend on the wealth of the ZIP code they 
live in or their ethnic heritage or whatever disability life 
might have brought them.
    We made a good start in our elementary and secondary 
education reforms, and I think the committee is very proud of 
that. Now, we want to be able to build on that, and I know of 
your advocacy that we need to start early and start often.
    We both know that children start school at different 
levels. Some start kindergarten already knowing their letters, 
and some with far more disadvantage. That is why we are looking 
forward to hearing from you this morning, to hear your ideas 
and recommendations on Head Start and Early Head Start.
    You are a librarian; I am a social worker. My first job out 
of graduate school in social work was working at a Head Start 
program as a social worker. Those children are now in their 
late thirties and early forties. They have gone on, finished 
school, some have gone on to college. They have all built lives 
and built communities, because it was not only about school, it 
was about services--early detection and screening, making sure 
they were reading-ready, making sure they could hear or did 
they need eyeglasses, and what support services to bring their 
parents into this.
    So as one social worker to a sister librarian, I look 
forward to working with you, because I think we both know that, 
as in public life, it is not how many hands we shake but how 
many lives we touch.
    I look forward to collaborating with you.
    The Chairman. Senator Enzi.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman.
    I too want to welcome the First Lady to her first 
appearance before this committee. I do remember that you almost 
had an appearance before, and I wound up being evacuated from 
the building along with you. At that time, we were hoping to 
have the education bill finished, and at this point we have the 
bill finished.
    I thank you for your dedication and the focus and the 
experience that you lent to your husband and to us so that we 
might be able to get that bill finished. We thank you for all 
of your experience in education and look forward to hearing 
from you today.
    The Chairman. Thank you, Senator Enzi.
    Senator Wellstone.

                 Opening Statement of Senator Wellstone

    Senator Wellstone. Thank you, Mr. Chairman.
    I also welcome the First Lady. I think this is an 
especially critical time, and we really need your leadership. I 
do not remember the statistics, and I should have written them 
down, but I think we are still covering only about half the 
children who are eligible for Head Start, and I think in Early 
Head Start, it is under 5 percent, or 10 percent at best. And 
on the whole child care picture, I think that barely 10 percent 
of low-income families are really able to participate; the 
parents or parent cannot afford child care, especially good 
child care, which I know you are very committed to.
    So I thank the First Lady. My experience has been that all 
of us--everybody--are for the children, especially the small 
children. They are all under 4 feet tall, they are all 
beautiful, and we should be nice to them. The problem is that 
we are all for them except when it comes to digging into our 
pockets and investing the resources that will really make this 
happen so that every child can reach his or her potential, and 
I think that your voice will be extremely important. I think we 
have to live up to the words that we speak.
    I thank you for being here.
    The Chairman. Thank you, Senator Wellstone.
    Senator Hutchinson.

                Opening Statement of Senator Hutchinson

    Senator Hutchinson. Thank you, Mr. Chairman.
    Mrs. Bush, thank you for coming today. I think all 
Americans will remember where they were on September 11, but I 
think it is very striking that you were dealing with education 
and your husband, our President, was in Florida, reading in an 
elementary school. That reflects your mutual commitment to 
education reform and education improvement in this country, and 
I applaud you for that.
    I think it is also wonderful and impressive that in the 
midst of the ongoing war on terrorism, the President could 
accomplish and, with the help of this committee and the 
Congress, achieve his number one domestic agenda item in the 
reauthorization of the Elementary and Secondary Education Act 
and the No Child Left Behind Act.
    We look forward to moving to the next phase and thank you 
for being here today. We applaud what you are doing.
    The Chairman. Thank you, Senator Hutchinson.
    Senator Reed.

                   Opening Statement of Senator Reed

    Senator Reed. Mrs. Bush, I want to thank you and commend 
you for your gracious and courageous presence in the White 
House and particularly thank you for your leadership on 
literacy. Because of you, I think, principally, and your 
efforts, we were able not only to pass the legislation to 
improve literacy training, but we also have some resources to 
buy library books for school libraries. I thank you for that 
effort.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Reed.
    Senator Bond.

                   Opening Statement of Senator Bond

    Senator Bond. Thank you, Mr. Chairman.
    Mrs. Bush, we welcome you here, and we thank you for your 
emphasis on early childhood education.
    We all know that research has shown that the earliest years 
are the most critical development period in a child's learning 
ability, the development of the brain, sensation and 
experiences. I was shocked to find out that half of the mature 
learning intelligence of a child develops by the age of 3.
    We know that parents and families are really key to this 
development. Early positive interaction with parents, 
grandparents, aunts and uncles plays a critical role.
    In Missouri, we are known as ``the show me State,'' and we 
have had the great good fortune to be shown that a program that 
we have in Missouri called Parents As Teachers really does 
work. It is an operation of early childhood development that 
educates parents, empowers them to help give their youngest 
children a good start in life. The program teaches parents how 
to do the best job of being their first teacher, and it puts 
the responsibility on the parent.
    Now, we have a lot of independent studies that show how 
successful PAT is, but I can tell you from personal testimony 
from hundreds of Missourians that it is working. Expanding that 
to become a Statewide program in Missouri is probably my 
proudest accomplishment as Governor. Now, 150,000 families 
voluntarily participate. They serve 200,000 children a year, 
and these children have a much better start because they have 
had active involvement of their parents.
    I look forward to working with you on early childhood 
development. I know that your Ready to Read, Ready to Learn 
initiative is very important. I hope that we can offer 
assistance and perhaps have an opportunity to show you how 
Parents As Teachers works.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Bond.
    Senator Clinton.

                  Opening Statement of Senator Clinton

    Senator Clinton. Thank you, Mr. Chairman.
    I join in welcoming you, Mrs. Bush. We are delighted that 
you are here. I also want to thank you for everything you have 
done since September 11 to reassure our Nation's parents and 
children to help so many who I am sure were having a great deal 
of difficulty understanding what was happening around them to 
be able to get through this time.
    The President's leadership on behalf of the State of New 
York and the commitment to rebuilding New York City is 
something that we are very, very grateful for.
    While much has changed since September 11, I think the fact 
that you are here today demonstrates clearly that we still have 
work to do and that there is not any more important task ahead 
of us than to prepare our children. I applaud your lifelong 
dedication to that task, and I particularly thank you for the 
White House conference that you held last year to try to bring 
even more attention to what we now know from scientific 
research about the way children learn.
    We do have a lot of good information; now we just have to 
put it to work. So your being here today gives new emphasis to 
the task before us to make sure that we do provide the 
opportunity for every child to live up to his or her God-given 
potential.
    I look forward to working with you, and I thank you very 
much for this commitment.
    Mrs. Bush. Thank you very much.
    The Chairman. Thank you, Senator Clinton.
    Senator Sessions.

                 Opening Statement of Senator Sessions

    Senator Sessions. Thank you, Mr. Chairman.
    Thank you, Mrs. Bush, for being with us. I agree with 
Senator Clinton that you showed real leadership in reaching out 
to children in the wake of September 11. I know that that came 
from your experience as a teacher working with children.
    My wife has taught for a number of years, I have taught, 
and a lot of my good friends are teachers, and we talk about 
those issues a lot.
    I know that you care about reading. I visited 11 schools in 
Alabama over the past week, and a lot of good things are 
happening. Teachers are teaching their hearts out. They are 
working every day and making progress in a lot of areas.
    I noticed that in one school that has adopted an Alabama 
Reading Initiative, Mr. Chairman, we more than doubled the 
funds in our bill that we passed. Alabama was spending $11 
million on this reading initiative that Massachusetts and 
Florida are studying, and it is working exceptionally well. It 
doubled what the State is going to be able to spend on that. 
One teacher who used the program told me that no child was more 
than one grade behind in their school.
    For those who have experience in education, you know that 
that is unusual. So I think there are a lot of positive thing 
happening out there, and I thank you for your leadership and 
look forward to continuing to work with you.
    Mrs. Bush. Thank you very much.
    The Chairman. Thank you, Senator Sessions.
    We are honored to have you with us, Mrs. Bush. I also join 
in welcoming Secretary Paige. We are all very grateful for his 
continued and ongoing important leadership in education, and we 
thank him for being here as well.
    Mrs. Bush, we look forward to hearing from you.

               STATEMENT OF FIRST LADY LAURA BUSH

    Mrs. Bush. Thank you all very much, Senator Kennedy, 
Senator Gregg, all the members of this committee. I thank you 
very much for your very warm welcome.
    I also want to recognize Secretary Rod Paige. He has been a 
school superintendent in one of the larger school districts in 
the United States, and that is really when you are on the front 
line, when you work as a school superintendent. I am so 
thrilled that he has joined my husband's administration with 
his expertise.
    So thank you very much, Secretary Paige.
    I also want to recognize Eunice Kennedy Shriver. Thank you 
for coming, and thank you for your work over all these years 
with children with special problems and for your work with the 
Special Olympics.
    On September 11, I came here to meet with all of you to 
talk about the development and education of our young children. 
That meeting, of course, as we all know, was canceled, or 
called off, because of the tragedies that struck the innocent 
victims at the World Trade Center Towers, the Pentagon, and 
those on Flight 93.
    September 11 was a turning point for all of us--as parents, 
as neighbors, as Americans. I will never forget the moments 
that Senator Kennedy and Senator Gregg and I shared privately 
before we met the media in this very room. And I will always 
remember that you were not concerned for yourselves, but 
rather, you were concerned for others; you were concerned for 
my husband, for the people of our country, and the victims of 
the attacks and their families.
    Yet when we came in here to make our public statements, you 
were resolute in announcing that this briefing was merely being 
postponed--not canceled. In the face of the tragedy, you 
remained focused on the children of America, and for that, I 
applaud you and all the members of this august committee.
    Since September 11, I have traveled across the country 
meeting children and their parents. I have seen the faces of 
children who were directly affected by the attacks--children 
who lost their parents in the Pennsylvania crash, children who 
were displaced from their schools in New York, students who 
lost classmates in the airplane that struck the Pentagon.
    As a result, I am doubly committed to using my voice to 
help give our youngest Americans a real chance to succeed in 
the classroom, in the university, and in the workplace. I am 
proud to be your partner in this effort to make sure that 
children's learning skills are nurtured during the critical 
years between the crib and the classroom.
    When President Bush was sworn into office 1 year ago, he 
vowed to make sure that every child was educated and that 
education was his top domestic priority. He committed to work 
to close the achievement gap among students.
    Thanks to the leadership of Senator Kennedy, Senator Gregg, 
and all the members of this committee, on January 8, President 
Bush signed into law the No Child Left Behind Act of 2001, an 
historic piece of legislation that sets high standards and 
holds schools accountable for student results.
    This comprehensive plan will improve overall student 
performance and help close the achievement gap that exists in 
our Nation's schools.
    In 2002, programs in the elementary and secondary reform 
bill received a 27 percent increase in funding, including an 18 
percent increase in Title I and a boost to nearly $1 billion 
for early reading programs.
    Soon, my husband will propose a budget that even further 
funds critical education programs. His proposal will include 
major increases for education and special education, including 
an increase of $1 billion in funding for Title I programs for 
disadvantaged students.
    The President's new budget will also ask for $1 billion in 
additional funding to help children with special needs. Thanks 
to the reforms included in the No Child Left Behind Act of 
2001, we can be sure that taxpayer dollars are spent wisely. I 
am proud to be part of President's Bush's efforts to improve 
the quality of education for all children.
    Last February, I launched an initiative called Ready to 
Read, Ready to Learn. This initiative has two major goals--
first, to ensure that all young children are ready to read and 
learn when they enter their first classroom; and second, to 
help our Nation recruit the best and the brightest to become 
teachers, especially in classrooms in our most impoverished 
neighborhoods. I am dedicated to ensuring that all young 
children are ready to read and learn upon school entry.
    My emphasis on making sure that preschool children are 
provided stimulating activities and interactions with adults 
and other children so they can develop strong language and pre-
reading concepts from birth onward stems from my own 
experiences as a mother, a public school teacher, and a school 
librarian.
    As a mother, I learned quickly that reading to our 
daughters and playing language games--even when they were 
babies--brought joy and laughter to our home. As they grew 
physically, they also grew in their love of being read to and 
then reading themselves.
    My husband and I must have read ``Hop on Pop'' to them 
dozens of times, and it was not uncommon for them to ask me to 
read the same book several times a day. It was astonishing to 
watch how many new words they learned as we read and talked 
about words and their meanings, the names of the letters and 
the sounds that letters make.
    Before I knew it, they could ``read'' many words in ``Hop 
on Pop'' and other books. Well, actually, they memorized those 
words, because we read them so often. But the important thing 
is that they thought they were reading. Even by 2 years of age, 
they knew when the book was right-side up, and they knew that 
we always started to read on the left side of the page.
    As they continued to grow, they became fascinated with 
different ways that we could play with words and sounds, and 
they delighted in hearing nursery rhymes, stories, and songs. 
Before they entered kindergarten, they knew that the letters 
and words in books talked to you just like people do.
    When our girls entered school, they were well on their way 
to independent reading, and their love for reading was firmly 
established. Little did I know at that time how all of our 
reading activities from their birth onward provided the 
foundation for their later reading skills.
    During my career as an elementary school teacher, I was 
fortunate to focus a great deal of time on a love of mine, 
which was interacting with young children around books and 
reading. In fact, story time and reading instruction was my 
favorite time of the day, and I was constantly thrilled at how 
reading opened up new worlds for the children and sparked their 
imaginations.
    However, this was also a time when I observed that some 
children were having difficulty learning to read. It was 
troubling to watch these little ones struggle with print, but 
it was even more troubling to see how embarrassed and 
frustrated they were by their failure to do what they saw other 
children do. It was as if their self-esteem and confidence took 
a blow every time they tried to read.
    For many of these children, I could see that they did not 
feel comfortable in school--it was not a place that they wanted 
to be--and I noticed that they began to avoid reading. Later, 
as a librarian, I also noticed that some teachers held lower 
expectations for these children even though many were very 
bright and quite adept at other skills.
    Many of these children were having difficulties learning to 
read because they had not developed the basic building blocks 
of language during their pre-reading skills--the building 
blocks that are forged through language play, lap-time reading, 
bedtime stories, and the conversations about the characters and 
the situations that the stories brought to life.
    Why was this basic foundation missing? In some cases, the 
children's parents had not learned to read themselves and could 
not read to their children. In some cases, limited income meant 
no books in the home. In some cases, parents' work schedules 
simply precluded any routine conversation, language play, or 
interactions with books if they were available.
    In yet other cases, parents and caregivers simply did not 
know the importance of reading to and engaging their children 
in word play. As a result, their children were less exposed to 
language. Some children may have had learning problems, making 
learning to read difficult.
    In short, I saw firsthand that many children simply did not 
have the early opportunities that help them develop a love for 
language and reading. And I learned that not having those 
opportunities can have devastating effects on children's 
success in school. I realized that for many children, being 
left behind did not begin in elementary school--it began in the 
years between diapers and the first backpacks.
    I also realized that something had to be done. There simply 
is no excuse for any of our youngest and most vulnerable 
children to be forced to climb uphill just as they enter 
school. It is a tough enough transition as it is. No matter 
what their circumstances of birth, we have to strive to level 
the playing field for those youngsters born into conditions 
that limit their opportunities to develop and learn.
    Over the years, I have been blessed to be surrounded by 
people who are passionate about education. My parents nurtured 
my love of reading before I started school. Mrs. Gnagy, my 
second-grade teacher, inspired me to become a teacher; my 
inlaws, who even in retirement promote strong schools and 
literacy programs; and of course, my husband, who shares our 
fellow Texan, Phyliss Hunter's, philosophy that reading is the 
new civil right.
    Last July, I convened a White House Summit on Early 
Childhood Cognitive Development at Georgetown University. Many 
experts and practitioners came together to help us understand 
how to help all of our children become ready to read and ready 
to learn. I am delighted that Senator Kennedy participated in 
the Summit and inspired us with his dedication to this issue.
    My specific purpose in convening the summit was to develop 
a clear understanding of what parents, grandparents, early 
childhood teachers, child care providers, and other caregivers 
can systematically do to provide children with rich and 
rewarding early learning experiences during a period of 
development that is marked by extraordinary growth and change.
    I asked the participants to focus on early cognitive 
development with an emphasis on the development of early 
language and pre-reading abilities. I wanted to make sure that 
all of us understood how these skills, or their absence, affect 
a child's later ability to read and thus succeed in school.
    While my focus is on early language and pre-reading 
development, I do not want to minimize the importance of 
nutrition and physical development or the development of 
feelings, behavior, or social skills. To address early 
cognitive development, including language and literacy 
development, outside the context of social and emotional 
development would limit the progress that we can make. All of 
these competencies are intertwined, and each requires focused 
attention.
    But the development of early language and pre-reading 
skills is not only extraordinarily critical to a child's 
reading ability and academic success throughout school, as well 
as his or her occupational success throughout life, the absence 
of this development has the potential to destroy self-esteem, 
confidence, and motivation to learn.
    The teaching of vocabulary concepts and other language 
skills and pre-reading skills to include print concepts, letter 
knowledge and phonological concepts in preschool programs has 
not been emphasized enough in the past and has not received the 
critical attention it needs.
    Why? Many early childhood educators and parents have 
thought that early learning was primarily maturational and that 
preschool children were not ``developmentally ready'' to learn 
about letters, sounds, writing, numbers, vocabulary concepts or 
other sophisticated content.
    Conventional wisdom has been that it is best to wait to 
encourage young children to read, count, and learn abstract 
concepts because they will get enough of that in school. The 
idea has been that teaching this type of content too early may 
interfere with the motivation to learn once the children arrive 
in school.
    But we have learned that this is not the case. The infant 
brain actually seeks out and acquires a tremendous amount of 
information about language in the first year of life. Even 
before babies can speak, they have already figured out many of 
the components of language. They know which particular sounds 
their language uses, what sounds can be combined to create 
words, and the tempo and rhythm of words and phrases.
    Why is this information important? Because developmental 
science has taught us that there is a strong correlation 
between early language development and reading. Language and 
reading require the same types of sound analysis. The better 
babies are at distinguishing the building blocks of speech at 6 
months, the better they will be at other more complex language 
skills at 2 and 3 years of age, and the easier it will be for 
them at 4 and 5 years old to grasp the idea of how sounds link 
to letters.
    Preschool cognitive abilities, including language and pre-
reading abilities, can predict school success and school 
completion. For example, reading scores in the 9th grade can be 
predicted with surprising accuracy from a child's knowledge of 
the alphabet in kindergarten.
    Children need help learning these concepts. They do not 
develop naturally. A child will not learn the name of the 
letter ``A'', the sound the letter ``A'' makes, or how to print 
it simply by being with adults who know these things or by 
being with adults who read a great deal for pleasure. Children 
learn these critical concepts because adults take the time and 
effort to teach them in an exciting, engaging, and interactive 
manner.
    This does not mean that preschool children should be taught 
using the same methods and materials that are used with first 
and second-graders. The challenge for the parent, the 
grandparent, the preschool teacher, or the child care provider 
is to develop fun, educational language activities that also 
engage and develop children's interests, social competencies, 
and emotional health. All of these goals can be joined and met, 
but there must be a clear and equal emphasis on building 
cognitive skills.
    Every expert who participated in the White House Summit on 
Early Childhood Cognitive Development stressed that reading is 
the keystone for academic and life success. A failure to learn 
to read not only leads to failure in school but portends 
failure throughout life.
    Not only are children humiliated emotionally and socially 
in school because of this failure, but they are unable to learn 
about the wonders of science, mathematics, literature, and 
other subjects because they cannot read grade-level text. By 
high school, the student who cannot read has almost no dream of 
attending college and can only look forward to meager 
occupational choices.
    It is no wonder that 10 to 15 percent of poor readers drop 
out of school. And with their limited options, they are more 
than twice as likely as successful students to be unemployed 
after dropping out, to be arrested, or to engage in substance 
abuse.
    Reading failure pushes beyond school failure and 
occupational hardships. Without sufficient reading skills, a 
person cannot read a prescription, decipher a warning label, or 
keep up with the news.
    Reading failure does not just constitute an educational 
issue--it reflects a significant public health problem. And 
with great anguish, we note that parents who cannot read cannot 
engage their own children in reading activities.
    During our summit, we learned that there are effective 
early language and cognitive development strategies that can be 
used at home and in preschool that can ensure that many 
children at risk of failure now can enter their first classroom 
ready to read and ready to learn.
    We can begin to disseminate and implement the principles 
applied in these strategies as quickly as possible through our 
colleges and universities, our professional organizations, 
libraries, and research programs.
    The best scientific knowledge about ``what works'' is only 
effective when it is provided in an informed manner. The early 
childhood field needs better curricula that do a better job of 
helping young children with their pre-reading and language 
skills.
    President Bush has asked Secretary Rod Paige and Secretary 
Tommy Thompson to convene a task force on early childhood 
development to identify priorities for research to address 
these critical issues. A team of scientists and educators from 
the National Institutes of Health, the Department of Education, 
and the Department of Health and Human Services is moving 
forward with plans to produce materials that will help parents, 
preschool and child care programs know more about enhancing 
cognitive development. They will also identify and conduct the 
research necessary to close critical knowledge gaps. 
Secretaries Paige and Thompson will share their findings with 
all of you as well.
    In closing, I want to thank you for the opportunity to 
discuss these important issues with you today. They are 
national issues that affect the heart and soul of our people. 
Education has always been important to our Nation, but since 
September 11, we appreciate its importance even more, because 
we want America to always be the land of opportunity and to 
have the kind of internal strength that comes from every child 
and every citizen having a great education.
    From day one, the education that we provide our children 
will shape the way they think and learn. The quality of their 
education will either drive or stifle the enthusiasm, 
motivation, and effort that they bring to learning, the way 
they interact with others, and their ability to adapt to their 
successes and failures throughout life. We are embarking on a 
most noble mission to help their journey become as fulfilling 
and as productive as possible. This is their birthright.
    I appreciate your inviting me here today, Senator Kennedy. 
I commend your efforts and those of Senator Gregg and all the 
committee members to ensure that all children have a strong 
language and pre-reading foundation before they board their 
first school bus.
    I look forward to our work on behalf of America's youngest 
children. Together, we will ensure that no child is left 
behind.
    Thank you all very much.
    The Chairman. Thank you very much for an excellent 
statement, Mrs. Bush.
    Before we ask questions, I know that you are under time 
pressure, and under the arrangements made, I have just a few 
questions, and Senator Gregg will ask some questions, too.
    I notice that Senator Harkin has arrived and would like to 
extend a word of welcome to him and recognize him at this time.

                  Opening Statement of Senator Harkin

    Senator Harkin. Thank you, Mr. Chairman.
    I want to welcome our First Lady. I thought it was a very 
eloquent statement, especially when you mentioned that ``for 
many children, being left behind did not begin in elementary 
school--it began in the years between diapers and backpacks.''
    In 1991, the Research and Policy Committee of the Committee 
for Economic Development issued a report under President Bush, 
the first President Bush, and their summary of that entire 
study said this: ``We must understand that education begins at 
birth and that preparation for education begins even before 
birth.''
    So I really applaud what you said and your focus on early 
childhood education. I just think that we spend so much time 
and money in this country patching and fixing and mending later 
on, and if we could just do what you are focusing on and focus 
on those early years, we will not have to be patching and 
fixing and mending later on.
    So I applaud you for it; continue your great leadership in 
this area.
    Thank you, Mr. Chairman.
    Mrs. Bush. Thank you.
    The Chairman. Thank you very much.
    Senator Warner has joined us as well.

                  Opening Statement of Senator Warner

    Senator Warner. Thank you, Mr. Chairman.
    Mrs. Bush, it is a privilege to have you here in this 
famous room in the U.S. Senate, presenting a case that in a way 
is understood by the American public in simple, direct 
language. I have found in over a quarter-century in public life 
that the most important word is ``credibility.'' You bring 
that.
    Mrs. Bush. Thank you.
    Senator Warner. In the jargon of America: ``Been there, 
done that.'' You have been a teacher, you have been a 
librarian, and based on that experience, the public is ready to 
accept you as a full partner in bringing about their prayers, 
really, to care for their children.
    So I commend the President and yourself, and I will predict 
that you achieve as few others have in the goals that you have 
set forth as a First Lady. Good luck.
    Mrs. Bush. Thank you very much.
    The Chairman. Thank you very much, Senator Harkin and 
Senator Warner.
    Mrs. Bush, in your statement, you reemphasized two very 
lofty goals which I think need constant restatement as 
guideposts for all of us who are interested in education 
generally and particularly in early education, and that is that 
when the child arrives in pre-kindergarten or first grade, he 
or she will be ready to learn and ready to read as well. Those 
are two very, very important and worthwhile goals.
    As you mentioned, we have just completed with the 
President's leadership the Leave No Child Behind Education Act. 
One of the very important aspects of that legislation is having 
quality teachers in the classrooms all the way from 
kindergarten and first grade to the 12th grade.
    You reference the importance of high-quality individuals 
working with children from the earliest ages, developing 
relationships with these children. How do you think we can 
attract the best and the brightest in our country to be 
involved and working with our children at the earliest ages and 
making a difference in their lives?
    Mrs. Bush. I think there are so many ways. Certainly, we 
can pay teachers more. I think that that is very important. I 
think we also need to pay attention to the ways that colleges 
and universities and departments of education educate teachers 
and prepare them for teaching. We know that colleges and 
universities pay a lot of attention to their law schools and to 
their medical schools; it is also critically important that 
they pay attention to their schools of education.
    I am going to be hosting a summit in March on teacher 
preparation and what we can do as a country to make sure that 
when teachers get their teacher certificate and enter the 
school, or when we prepare child care and Head Start teachers 
in community colleges with their certification, they get a very 
good education and are literally prepared to teach people to 
read when they start school.
    But I also think that there is something that our whole 
country can do, and that is to value our teachers. Each of us 
has a story about a teacher who literally changed our lives, 
who let us know something about ourselves that we did not know, 
or who encouraged us in a way that no one else could.
    So I hope that all of us will again thank our own 
children's teachers and that we will encourage young people to 
choose teaching as a career. It is a very noble career; it is 
one of the most profound professions. I think it makes a more 
profound impact on our country than almost any other 
profession.
    I do think there is at least a little bit of anecdotal 
evidence that young people are choosing teaching again. Seven 
of my friends' children have gone back to college to get a 
teaching certificate; they had other degrees. I think that 
after September 11, when people reassessed their own lives, 
they looked for ways that they could help, and certainly by 
being a great teacher, we can affect the lives of so many 
people.
    I think there is a lot for all of us to do in our country 
to let teachers know how much we value them, and I think that 
when people realize how noble that profession is, maybe we can 
attract more of the best and brightest.
    The Chairman. This is an excellent response and an 
enormously important one. What you are reminding us is that if 
we want to get the best teachers in K through 12, we are going 
to have to get the best of those who work with children in the 
earliest years. It seems to make sense, but I think we need to 
be reminded of that, because there is an enormous challenge in 
that area.
    Let me ask you about the role that you think we can play. 
Do you think there is a role for Congress? I think all of us 
are looking for our appropriate role in trying to help in this 
area, and I am interested in your general sense and whether you 
think there is a role for us.
    Mrs. Bush. I definitely think there is a role for 
Government and for the Congress. Doing things like holding 
these hearings--every one of us needs to figure out ways that 
we can inform all of the public--and certainly there is a role 
for the media in this as well--to inform all of the public of 
how important it is, how important those very first years are 
to a child's life and what parents and caregivers and 
grandparents and babysitters, as well as preschool teachers and 
Head Start teachers, can do to nurture those very critical 
language skills early in a child's life.
    I think there is a role for all of us, but certainly there 
is a role for funding for early childhood programs, there is a 
role for funding for research to learn more about how children 
actually learn and what we can do about it.
    All of us need to play a role in making sure that our very 
young children are nurtured.
    The Chairman. In your statement on page 4, you say: ``While 
my focus is on early language and pre-reading development, I do 
not want to minimize the importance of nutrition and physical 
development or the development of feelings, behavior, and 
social skills. To address early cognitive development, 
including language and literacy development, outside of the 
context of social and emotional development, would limit the 
progress that we can make. All of these competencies are 
intertwined, and each requires focused attention.''
    Mrs. Bush. And that is absolutely right. One of the goals 
of Head Start was to supply certain nutritional, social, 
immunization, and every sort of health benefit that Head Start 
could provide to very young children.
    I have a very favorite Head Start center which is in 
Dallas, the Margaret Cone Center. Texas Instruments Foundation 
in Dallas looked around for something to do in Dallas that 
could help people, and they picked this Head Start center 
because the neighborhood that it was located in had the lowest 
education rate, the highest poverty rate, and the most single 
parents. So they chose the Margaret Cone Head Start Center, and 
they augmented the amount of money that each Head Start child 
in this center had by about $4,000. They made it full-time, 
year-around, all day, provided three meals a day, provided a 
social worker per every few families, and even after 2 years of 
doing that, when the children entered the public school across 
the street, they still tested in the lowest 21st percentile on 
the Iowa Test of Basic Skills.
    So the Texas Instruments Foundation realized that there was 
something missing. They had provided every social and 
nutritional thing they could provide to these children. So they 
went to a professor who happened to be at SMU, my alma mater, 
and she developed a very good curriculum for very young 3- and 
4-year-olds. It includes a lot of play, but it is very 
language-rich.
    They trained the teachers--and this is a very important 
part of it. The teachers were like other Head Start teachers in 
that they were not certified like elementary and secondary 
teachers were. But they did do this training with the teachers 
to incorporate these language-rich activities. And then, after 
2 years of being in this Head Start center, when the children 
started the public school across the street, they tested in the 
95th percentile on the Iowa Test of Basic Skills. So they 
realized that the one component that was missing was the 
component of this curriculum that was very language-rich. And 
of course, they had to train the teachers to be able to teach 
this, and that is a very important part.
    When we are talking about teachers, teachers need to be 
trained. Child care providers and Head Start teachers need to 
be trained in adding these language-rich activities.
    When I visited the Margaret Cone Center, some of the 
children could actually already read, even though they were 4. 
And now, the Texas Instruments Foundation has about 12 years of 
research. They have followed these children for the 12 years 
that they worked with the Margaret Cone Center, so they know 
how they do later in school. They have now also funded, but 
only for the last 2 years, the Jerry Junkin Center in Dallas 
that works with children who have English as a second language. 
So they just have a little bit of research about what adding 
these language-rich experiences can do for children.
    The Chairman. That is very instructive and helpful, and we 
will certainly follow up, because it is a wonderful example 
that you have referenced.
    Finally, from your testimony today and also in reading 
through your statement at the summit, is seems that you 
intuitively understand what science has borne out over the last 
10 years, that there is some very important potential in terms 
of early learning in terms your own children and the value that 
it has for children. That is something that I think is very 
clear both from your own statements and from what you have done 
and in the leadership that you have provided.
    Let me finally ask you about the dilemma that we are facing 
with low-income mothers, particularly those with toddlers, who 
are facing extraordinary challenges in terms of caring for 
their children and also in terms of trying to ensure that they 
will have adequate care. This presents a dilemma, and I am not 
really looking for a precise answer as much as your own 
understanding of the kinds of challenges that poor women have 
in trying to deal with the balance between providing for their 
family and working and caring for toddlers. It is really an 
important challenge and one that has no easy answers.
    I would be interested if you have any comments on that.
    Mrs. Bush. That is right. You are right about intuitively 
knowing. One of the reasons why mothers talk to their babies in 
that sort of sing-song baby talk intuitively is because that 
emphasizes language, it emphasizes sound, it emphasizes 
syllables and patterns of words.
    One reason why nursery rhymes have been popular for 
hundreds of years is because that also emphasizes to children 
language and rhyme and rhythm. All of those things a lot of 
people do know intuitively, but not everyone knows it. I think 
we have to address it in a myriad of ways. The medical 
community can help. For instance, when mothers or parents bring 
their children in for their well-baby visits, they can talk to 
the mothers about how important it is to read to their 
children. That is a program in a lot of clinics all across the 
country now with pediatricians, because like we said earlier, 
not being able to read is also a public health issue, so the 
medical profession can be involved.
    Certainly, libraries can be involved and all of the 
literacy providers around the country. There was a doctor at 
Texas Tech University who started the Reach Out and Read 
Program there, which actually started in Boston with Dr. 
Zuckerman. First, she thought she would just try prescribing 
reading to a mother with the very first mother who brought her 
little boy in. So the mother came in with her little boy, who 
was there because he was having asthma problems, and my friend, 
Dr. Bakke, after she worked with the little boy and talked with 
the mother, wrote out this little prescription and gave it to 
the mother and said, ``This is for you to read with your 
baby.'' And the mother whispered, ``I cannot read.''
    So she already knew that that was going to be a part of the 
problem, and she was able to give this woman a literacy 
provider in her little West Texas town, which probably had to 
do either with her school district or her library, so the 
mother could at least learn to read enough to be able to read 
her son's asthma medication labels.
    So there will be a myriad of ways that we are going to have 
to try to reach young mothers who are struggling economically, 
who are struggling to take care of very young children, and all 
of us have to figure out a way that we can help them. School 
systems can help, Head Start centers can help, libraries can 
help, mentors around the country can help, and certainly, 
Senator Bond talked about Parents As Teachers--all those 
providers can help. We will have to address that problem in a 
lot of ways.
    The Chairman. Thank you very much.
    Senator Gregg.
    Senator Gregg. Thank you for a superb statement that 
certainly defines the issue and puts on the table a number of 
ideas that we can use.
    I was especially interested in your discussion of the 
Margaret Cone Center, which is the type of example that I think 
we can build on here, and I look forward to doing so.
    Following up on the last point you were making, do you have 
thoughts or ideas on what parents can do who do have the skills 
but maybe are not using them? What should parents be doing?
    Mrs. Bush. I hope one good result out of September 11th is 
that parents are realizing that no matter how busy they are, 
they have to make time for their children. I think that what 
happened on September 11th reinforced for all of us the idea 
that we might not have as much time as we think we have with 
our loved ones, and I hope it reinforced for parents how 
important it is to spend time with their children.
    But there are so many things that parents can do, starting 
with reading to their babies when their babies are 6 months 
old. All of the things that come out of reading a story with 
their children--the talk about words, the talk about letters, 
the talk about sounds, the games that you can play with 
children to rhyme, the songs that you can sing to children--all 
of those are critically important, and most people know that 
intuitively when they are with babies. The peek-a-boo games, 
all of those little games that parents have played with their 
children forever, are very critical later to their children's 
success in life. But parents need to make sure that they do not 
let weeks and months go by without reading a story to their 
children. And even when their children start school, when they 
are in the first and second and third grades, during those 
first years that they are learning to read, if they do not read 
a book all summer, if their parents never take them to the 
library or to the book store if they can afford it in the 
summer to pick out a book, when that child starts the first 
week of the second grade or the first week of the third grade, 
their teacher will have to start over.
    Reading takes practice, and it really is incumbent upon 
every parent to read to their children every, single day if 
they possibly can. It just takes 5 or 10 minutes--and not only 
when we put our arms around our children and read to them do we 
show them that reading is important, but more importantly, we 
show them that they are important, that they are so important 
to us that we can spare 5 or 10 minutes a day to put our arms 
around them and read to them.
    Senator Gregg. I cannot think of a stronger statement.
    Mrs. Bush. Thanks.
    Senator Gregg. I appreciate your taking the time to come 
today. I know you are on a tight schedule, and we thank you 
very much.
    Mrs. Bush. Thank you so much.
    Thank you all very, very much, and thank you for having me.
    Senator Dodd. Mr. Chairman, could I make just one 
observation?
    I thank you as well for the terrific statement that you 
have made. And by the way, the little book you sent to our 
daughter, ``Where the Wild Things Are''--and that is not about 
Congress, I want you to know--is just delightful, and I have 
already been reading that to Grace.
    But just to emphasize something that Senator Kennedy raised 
and you did as well in your statement, about 75 percent of all 
children today, particularly poor children, spend some time in 
a child care setting. Senator Hatch and I some 16 or 17 years 
ago wrote the Child Care Development Block Grant, and I am 
delighted that Secretary Paige is here and that you are going 
to involve Senator Thompson as well. It is going to be so 
critical in that child care development issue that we 
incorporate exactly what you are talking about because so many 
children are involved in a child care setting. There are about 
6 million infants and toddlers in child care every day in this 
country, and it is going to be so important in that setting 
that these very principles that you have talked about with 
parents and teachers be incorporated as well. I know you care 
about that, but I wanted to just emphasize that.
    Mrs. Bush. That is absolutely critical. When my husband was 
Governor of Texas and we got an appropriation from the Texas 
legislature for Head Start for the first time--they 
appropriated money for a Federal program--part of that 
appropriation included training teachers not just from Head 
Start but also from child care centers around the State. We 
need to also address those private child care centers--and I 
know that public television has tried to work with this as 
well--even the mothers in their homes who care for two or three 
infants and toddlers; we need to try to reach every one of 
those child care providers.
    Senator Dodd. Thank you.
    Mrs. Bush. Thank you.
    The Chairman. As Senator Dodd pointed out, we have the 
reauthorization of that program and Head Start coming up as 
well. We want to work very closely with you, Mrs. Bush, and we 
want to work with the administration. We have made progress in 
education earlier. This is a matter of enormous importance. No 
one can listen to you this morning and not be aware of your own 
leadership in this area. We know that the President is strongly 
committed to it, and we think we can make a difference to 
children. So we look forward to working very closely.
    We thank you immensely for your presence here and for all 
that you do for the children of this country, and we appreciate 
very much your return to this committee. We wish you very well, 
and our best regards to the President.
    Mrs. Bush. Thank you very, very much.
    The Chairman. Since this is a forum, the forum is in 
recess.
    [Additional statements and material submitted for the 
record follow:]
   Prepared Statement of Bob McGrath, a/k/a ``Bob'' of Sesame Street
    Chairman Kennedy, Ranking Member Gregg, and members of the 
committee, I am very pleased to have this opportunity to present this 
statement for the record. As ``Bob,'' the music teacher on Sesame 
Street for the past 32 years, I have had the good fortune to be 
actively involved with children in their early childhood years--
preparing their minds and spirits to learn. I have found that my most 
effective tool in this labor of love is music. My remarks today focus 
on the vital role that music education can and does play for young 
children in laying the foundation for academic achievement in school 
and success in life.
    The Research
    By now, most of us are aware of the research that documents the 
association of music making and brain development. The evidence linking 
a child's capacity to learn with playing music at an early age is quite 
robust. It suggests that music-making has a positive impact on 
children's cognitive abilities in language, memory, and spatialtemporal 
reasoning, as well as social and motor skills that last a lifetime.
    Because music enhances the phonemic stage of learning to read, it 
allows us to hear and differentiate closely-related speech sounds. This 
is why children with good pitch discrimination are better readers.
    Music can touch the innermost creative part of a child and bring 
out confidence and selfesteem. Since children learn in so many 
different and individual styles, whether they be visual, auditory, 
tactile, or through movement, music is the perfect vehicle for 
discovering a child's individual strengths and stimulating learning.
    According to psychologist Frances Rauscher of the University of 
Wisconsin at Oshkosh, ``Children are born with all the nerve cells, or 
neurons, they will ever have. However, connections between neurons, 
called synapses, are sparse and unstable. Synaptic connections largely 
determine adult intelligence. During the first six years of life, the 
number of synapses increases dramatically, and synapses already in 
place are stabilized. This process occurs as a result of experience or 
learning. Those synapses not used are eliminated - a ``use it or lose 
it'' situation. Music training appears to develop the synaptic 
connections that are relevant to abstract thought.'' It appears, then, 
that experiences in music during the early childhood period are vital 
to maximizing the number of synaptic connections and the potential for 
learning. We must abandon the idea that music education for early 
childhood is merely a time for kids to sing a few songs, or that it is 
simply a change of pace from other subjects. Music education is worthy 
in its own right. It is an essential educational coMponent of early 
childhood development.
    The Sesame Street Experience
    At Sesame Street, music has always been an integral part of our 
productions. Through animation, film, musical guests from Paul Simon to 
Placido Domingo, and yes, muppets, we have used music to educate, 
inspire, and engage children in new ideas and connect them with 
cultures around the world. The early childhood years are our specialty, 
and we have found considerable success, as measured by the 
overwhelmingly positive responses of parents, children, and teachers 
over the last 32 years.
    There has never been a more exciting time to be involved in 
bringing music to children and turning them on to the magic of music-
making. Indeed, for the first time, national partnerships are now 
helping to bring music to young people throughout the country. One 
project with which I have been personally involved over the past year 
is ``Sesame Street MUSIC WORKS,'' a cutting-edge music education 
curriculum that is now a central part of Sesame Street's programming. 
It will reach and benefit millions of children, parents, caregivers, 
and educators. The multi-media components will be created in both 
English and Spanish. The focus will be music and art for children aged 
birth to 5. Due to generous grants from NAMM: The International Music 
Products Association, MENC: The National Association for Music 
Education, and the Texaco Foundation, the MUSIC WORKS curriculum will 
be integrated across Sesame Street's signature programming, including 
our television program, SesameStreet.com (a first-ever early childhood 
musiclearning website), and Sesame Street-licensed musical products. A 
MUSIC WORKS tool kit will be available for free to the general public 
through the website this fall and will include a 30-minute music 
education video, with information on ways to include music in 
children's learning. All Sesame Street-licensed products will include 
an insert from The American Music Conference that will outline ways for 
parents to include music as an integral component of early childhood 
learning. In November, 2001, we will launch an extensive media campaign 
to promote access to the free tool kit and to raise awareness of the 
influential role of music in early childhood learning. It is our 
sincere hope that this program will be expanded internationally in the 
coming years.
    The Challenge
    While I am very proud to be a part of all that Sesame Street has 
undertaken to promote music education for young children, our work is 
never done. We are always looking for more partners. Our existing 
partnerships include organizations representing industry, educators, 
caregivers, school administrators, parents, and charities. I would like 
to add Congress and the Administration to this illustrious fist. 
Together, we can meet the challenge of--to paraphrase a colleague from 
the Eastman School of Music--making music as integral and embedded in 
early childhood education as blocks and the sand box.
    To achieve this goal, we must broadly disseminate information on 
the music/brain research and its implications for early childhood 
education to parents, school administrators, and state and local 
education officials so that local education policies are informed by 
science and solid experience. The U.S. Department of Education, with 
its far-reaching network and outreach activities, could be of enormous 
assistance in this regard. Additionally, Head Start and other early 
childhood programs receiving federal funding should be encouraged to 
provide equal access and opportunity in music education for all 
children. Professional development programs to assist educators in 
teaching and integrating music into the curriculum merit support at the 
federal level as well. Congress and the Administration also must 
continue and expand the use of your respective bully pulpits to spread 
the message that music should be a priority because of its crucial role 
in learning. Hearings, White House conferences, town hall meetings, 
speeches, and media contacts would be powerful tools in support of our 
effort.
    Conclusion
    I applaud the Committee's scheduling of this important hearing 
today. Indeed, there is no more significant and honorable task than the 
education of our children. The earliest stages of the educational 
process are so critical to later success. Music must be present from 
the beginning to ensure optimal leaming for young children in child 
care and early childhood classrooms. I strongly believe that anyone who 
works with young children must be prepared to help them find a way to 
make music. Albert Einstein once said, ``I often think in music. I see 
my life in terms of music.'' With assistance from committed partners in 
the public and private sectors, our child care settings and schools 
will be ready if a three-year-old Albert Einstein shows up at the door.

    The Chairman. Thank you.
    [Whereupon, at 10:55 a.m., the committee was adjourned.]

                                    

      

</pre></body></html>
